<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-535]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-535

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON


S. 2395                        S. 3533                    H.R. 3607
S. 2895/H.R. 5613              S. 3534                    H.R. 3961
S. 3291                        S. 3571/H.R. 5420          H.R. 5005
S. 3439/H.R. 5532              S. 3646                    H.R. 5706
S. 3468                        S. 3609/H.R. 801           H.R. 6077
S. 3505                        S. 3659                    H.R. 6599
S. 3527/H.R. 5585              H.R. 1220                  H.R. 6687
 
                               __________

                           DECEMBER 12, 2018
                               __________

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
33-662                    WASHINGTON : 2019          



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman

JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        ANGUS S. KING, JR.
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          MAZIE K. HIRONO
ROB PORTMAN                          TAMMY DUCKWORTH

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Michelle Lane, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Rebecca Bonner, Democratic Professional Staff Member


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1
King, Jr., Hon. Angus S., Subcommittee Ranking Member and a U.S. 
  Senator from Maine.............................................     5
Capito, Hon. Shelley Moore, a U.S. Senator from West Virginia....     5

                                WITNESS

Smith, Mr. P. Daniel, Deputy Director, National Park Service, 
  U.S. Department of the Interior................................    42

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Agenda...........................................................     3
Akers, Randy L.:
    Letter for the Record........................................    94
Capito, Hon. Shelley Moore:
    Opening Statement............................................     5
City of Hinton (WV):
    Resolution for the Record....................................     7
City of Summersville (WV):
    Resolution for the Record....................................     9
Coda, James:
    Letter for the Record........................................    95
Daines, Hon. Steve:
    Opening Statement............................................     1
    Hearing Announcement and Agenda..............................     3
Fayette County (WV) Chamber of Commerce:
    Resolution for the Record....................................    11
Fayette County (WV) Commission:
    Letter and Resolution for the Record.........................    13
Giles County (VA) Board of Supervisors:
    Resolution for the Record....................................    15
Graham, Hon. Lindsey O.:
    Statement for the Record.....................................   101
    Article by Gregory P. Downs and Kate Masur published in The 
      New York Times dated November 16, 2018, entitled ``How to 
      Remember Reconstruction''..................................   104
Keyserling, Hon. Billy, et al.:
    Letter for the Record........................................   108
King, Jr., Hon. Angus S.:
    Opening Statement............................................     5
Markey, Hon. Edward J.:
    Letter for the Record........................................   115
Mercer County (WV) Commission:
    Resolution for the Record....................................    18
National Parks Conservation Association:
    Letter for the Record........................................    20
New River Gorge Convention & Visitors Bureau:
    Resolution for the Record....................................    24
New River Gorge Regional Development Authority:
    Resolution for the Record....................................    26
New River Travel Council d/b/a Visit Southern West Virginia:
    Resolution for the Record....................................    28
Raleigh County (WV) Commission:
    Resolution for the Record....................................    30
River Expeditions:
    Letter for the Record........................................    34
Roberts, Hon. Pat:
    Statement for the Record.....................................   116
Smith, P. Daniel:
    Opening Statement............................................    42
    Written Testimony............................................    45
    Responses to Questions for the Record........................    92
Summers County (WV) Commission:
    Resolution for the Record....................................    35
West Virginia Association of Convention & Visitors Bureaus:
    Resolution for the Record....................................    38
West Virginia Hospitality & Travel Association:
    Resolution for the Record....................................    40
Yoder, Hon. Kevin:
    Statement for the Record.....................................   117

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
public/index.cfm/2018/12/subcommittee-on-national-parks-legislative-
hearing

 
                          PENDING LEGISLATION

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2018

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Steve Daines, 
presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. The Subcommittee will come to 
order.
    This morning the National Parks Subcommittee is meeting to 
discuss 26 bills that cover a wide range of priorities for 
members, both on and off the Committee, all of which pertain to 
lands or programs administered by the National Park Service. As 
we move closer to the end of the year, I would like to note 
that we have reported out well over 100 bills through the full 
Committee with a large number of those coming from this 
Subcommittee. We do a lot of great work in the Subcommittee 
with items that, at times, may be impactful to the entire 
nation, like Senate bill 3172, the Restore Our Parks Act. 
Senate bill 3172, which I was a co-sponsor on, would work to 
resolve the deferred maintenance backlog in our National Parks. 
As the Ranking Member here has so well said, ``deferred 
maintenance is debt.'' I attribute that quote to the Senator 
from Maine.
    Other bills are more parochial in nature and may deal with 
either adjusting a park unit boundary, redesignating a park 
unit or simply authorizing a study. No matter how big or small, 
all of these pieces of legislation are important, and I am 
happy we can continue to build upon that body of work here 
today.
    There are a number of interesting pieces of legislation on 
the agenda today, including one that would designate the Route 
66 National Historic Trail. Now Route 66 does not go through my 
home State of Montana, but the road symbolizes a shared 
American experience and, in many ways, the spirit of adventure 
and the thrill of the road trip that is so unique to us as 
Americans.
    We will also be looking at H.R. 3607, a bill that would 
allow the National Park Service to retain the fees it collects 
from medical services provided in park units. Given the remote 
nature of many parks, like Glacier or Yellowstone in my home 
State of Montana, a number of these parks provide regular 
medical services to visitors. When visitors or their insurers 
reimburse the park for services incurred by park staff, those 
monies are deposited in the general treasury and are not given 
back to the individual park unit. Thus, the individual park 
units have to pay for these expenses out of their annual 
operating budgets which can place quite a strain on staff and 
assets on the ground. Working to resolve this issue seems like 
a commonsense solution we can all get behind.
    We have a packed schedule today, so I am going to try to 
keep things moving quickly if that is okay with everybody here.
    The purpose of this hearing is to consider the 
Administration's views on pending legislation and allow 
Committee members an opportunity to ask questions. We will also 
include written statements that have been sent to the 
Subcommittee in the official hearing record.
    Because of the large number of bills on today's agenda, I 
will not read through the list. Rather, we will include the 
complete agenda in the hearing record, without objection.
    [List of the bills on the agenda follows:]

                             COMMITTEE ON 
                      ENERGY AND NATURAL RESOURCES

                     Subcommittee on National Parks

                HEARING ANNOUNCEMENT AND AGENDA

    This notice is to advise you of a legislative hearing 
before the Committee on Energy and Natural Resources' 
Subcommittee on National Parks. The hearing will be held on 
Wednesday, December 12, 2018, at 10 a.m. in Room 366 of the 
Dirksen Senate Office Building in Washington, DC.
    The purpose of this hearing is to receive testimony on the 
following bills:
  <bullet> S. 2395, to amend title 54, United States Code, to 
        authorize the provision of technical assistance under 
        the Preserve America Program and to direct the 
        Secretary of the Interior to enter into partnerships 
        with communities adjacent to units of the National Park 
        System to leverage local cultural heritage tourism 
        assets (Schatz)
  <bullet> S. 2895/H.R. 5613, to designate the Quindaro 
        Townsite in Kansas City, Kansas, as a National 
        Commemorative Site (Roberts/Yoder)
  <bullet> S. 3291, to reauthorize the New Jersey Coastal 
        Heritage Trail Route, and for other purposes (Menendez)
  <bullet> S. 3439/H.R. 5532, to redesignate the Reconstruction 
        Era National Monument as the Reconstruction Era 
        National Historical Park, and for other purposes 
        (Graham/Clyburn)
  <bullet> S. 3468, to amend the Wild and Scenic Rivers Act to 
        designate segments of the Nashua, Squannacook, and 
        Nissitissit Rivers as components of the Wild and Scenic 
        Rivers System, and for other purposes (Markey)
  <bullet> S. 3505, to provide for partnerships among State and 
        local governments, regional entities, and the private 
        sector to preserve, conserve, and enhance the visitor 
        experience at nationally significant battlefields of 
        the American Revolution, War of 1812, and Civil War, 
        and for other purposes (Isakson)
  <bullet> S. 3527/H.R. 5585, to extend the authorization for 
        the Cape Cod National Seashore Advisory Commission 
        (Markey/Keating)
  <bullet> S. 3533, to amend the Wild and Scenic Rivers Act to 
        designate certain river segments within the Wood-
        Pawcatuck watershed as components of the National Wild 
        and Scenic Rivers System, and for other purposes (Reed)
  <bullet> S. 3534, to redesignate the New River Gorge National 
        River in the State of West Virginia as the `New River 
        Gorge National Park' (Capito)
  <bullet> S. 3571/H.R. 5420, to authorize the acquisition of 
        land for addition to the Home of Franklin D. Roosevelt 
        National Historic Site in the State of New York, and 
        for other purposes (Gillibrand/Faso)
  <bullet> S. 3646, a bill to authorize the Secretary of the 
        Interior to accept certain properties in the State of 
        Missouri (Blunt)
  <bullet> S. 3609/H.R. 801, to amend the National Trails 
        System Act to designate the Route 66 National Historic 
        Trail, and for other purposes (Udall/LaHood)
  <bullet> S. 3659, to authorize the Secretary of the Interior 
        to annually designate at least one city in the United 
        States as an ``American World War II Heritage City'', 
        and for other purposes (Tillis)
  <bullet> H.R. 1220, to establish the Adams Memorial 
        Commission to carry out the provisions of Public Law 
        107-62, and for other purposes (Lynch)
  <bullet> H.R. 3607, to authorize the Secretary of the 
        Interior to establish fees for medical services 
        provided in units of the National Park System, and for 
        other purposes (McClintock)
  <bullet> H.R. 3961, to amend the Wild and Scenic Rivers Act 
        to designate segments of the Kissimmee River and its 
        tributaries in the State of Florida for the study of 
        potential addition to the National Wild and Scenic 
        Rivers System, and for other purposes (Soto)
  <bullet> H.R. 5005, to direct the Secretary of the Interior 
        to conduct a special resource study to determine the 
        suitability and feasibility of establishing the 
        birthplace of James Weldon Johnson in Jacksonville, 
        Florida, as a unit of the National Park System (Lawson)
  <bullet> H.R. 5706, to establish the Pearl Harbor National 
        Memorial in the State of Hawai'i and the Honouliuli 
        National Historic Site in the State of Hawai'i, and for 
        other purposes (Hanabusa)
  <bullet> H.R. 6077, recognizing the National Comedy Center in 
        Jamestown, New York (Reed)
  <bullet> H.R. 6599, to modify the application of temporary 
        limited appointment regulations to the National Park 
        Service, and for other purposes (Knight)
  <bullet> H.R. 6687, to direct the Secretary of the Interior 
        to manage the Point Reyes National Seashore in the 
        State of California consistently with Congress' long-
        standing intent to continue to authorize working 
        dairies and ranches on agricultural property as part of 
        the seashore's unique historic, cultural, scenic and 
        natural values, and for other purposes (Huffman)
    Senator Daines. We have one witness here today. He has been 
here before, Mr. P. Daniel Smith, Deputy Director of the 
National Park Service, U.S. Department of the Interior. It is 
very good to see you here again, Mr. Smith.
    First, let me turn to the Ranking Member, Senator King, for 
his opening remarks.

             STATEMENT OF HON. ANGUS S. KING, JR., 
                    U.S. SENATOR FROM MAINE

    Senator King. I don't want to use too much of the 
Committee's time. I just want to welcome Dan Smith. Mr. 
Chairman, I can attest that anything he says will be both wise 
and true. I know that because he is from the State of Maine.
    We are delighted to have you with us this morning. These 
bills are indicative of the confidence that people have in the 
Park Service because they want you to do a little bit of 
everything, and I think that is a tribute to the quality of the 
Park Service and the services they deliver to the American 
people. So I look forward to the hearing, look forward to 
considering these bills and I thank the Chair.
    Senator Daines. Thank you, Senator King.
    I understand Senator Capito would like to give a short 
opening statement regarding Senate bill 3534.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Chairman Daines, and thank you, 
Ranking Member King, for letting me discuss my bill, the New 
River Gorge National Park Designation Act, that is before the 
Subcommittee today. I want to thank your staffs as well for 
including S. 3534, the New River Gorge National Park 
Designation Act, in today's proceedings and I want to thank 
you, Deputy Director Smith--we have your statement--for coming 
to share your views on this.
    The New River Gorge serves as a great source of pride for 
my State of West Virginia and is a driver for our state's 
tourism industry. It was established in 1978 as a national 
river and hundreds of thousands of tourists, many from the DC 
area and--I see former Congressman Rahall in the audience 
today, he was very active in this--visitors from all over the 
world come annually to take in the breathtaking views and 
outdoor recreation opportunities that the New River Gorge has 
to offer.
    In addition to incredible scenery, the Gorge plays host to 
thrill seekers of all ages from watching base jumpers leap or 
catapult--they were catapulting last time I saw them--on the 
New River Gorge Bridge Day to hiking the countless trails.
    Over the years the idea to redesignate the New River Gorge 
National River as a national park has been floated but no 
policy steps have been taken until this point. This year I 
heard from a growing chorus of the constituents, local 
government officials and other West Virginia organizations and 
businesses who support redesignation which prompted my 
introduction of S. 3534.
    With unanimous consent, I would like to submit letters of 
support I have from the counties of Raleigh County, Fayette 
County, Summers County, Mercer County, City of Hinton and City 
of Summersville, the local leaders. If I could submit those 
letters and other letters without objection.
    Senator Daines. Without objection.
    [Letters in support of S. 3534 follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Capito. So, fairly or not, national parks endure 
more public awareness than our national rivers. In May, 
Headwaters Economics released a study in which they examined 
eight national monuments that were redesignated as national 
parks. The study found that the average number of visitors to 
the eight parks increased by 28 percent in the five years after 
they had gained a national park status. West Virginia's economy 
is diversifying and the tourism is playing a significant role 
in providing jobs directly and indirectly to West Virginians, 
so this represents a real opportunity for that growth.
    I also drafted this legislation in mind with the sportsmen 
and sportswomen of West Virginia. The tradition of hunting and 
fishing in the New River Gorge has been passed down for 
generations, which is why my bill ensures that the current 
hunting and fishing regulations that govern the national river 
would be carried to the national park in accordance with the 
statutory attempt of previous Congresses.
    Getting redesignation across the finish line may require 
political compromise, and you allude to this in your statement, 
perhaps via a park and preserve model, but the principle of 
preserving hunting and fishing is non-negotiable. We must 
ensure that the sportsmen and women of West Virginia can 
continue the long tradition of hunting and fishing on these 
public lands and that the state maintains primacy in the field 
of wildlife management. That is why I introduced the strongest 
bill possible on this point to open discussion on a path 
forward.
    Once again, I appreciate the opportunity to do this and to 
discuss this with you, Deputy Director Smith. I look forward to 
this. We feel that the New River Gorge deserves the recognition 
that it deserves as a National Park Service unit that cherishes 
our history, emphasizes our state's natural beauty and 
enshrines the traditional access of our sportsmen and women.
    Thank you.
    Senator Daines. Thank you, Senator Capito.
    All member statements will be added to the hearing record.
    We will now proceed to the witness testimony. At the end of 
the testimony, we will begin questions.
    Mr. Smith, your full written testimony will be made part of 
the official hearing record.
    Mr. Smith, you may proceed.

        STATEMENT OF P. DANIEL SMITH, DEPUTY DIRECTOR, 
         NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Smith. Mr. Chairman, Ranking Member, it was great to be 
with both of you in your states dealing with deferred 
maintenance earlier this year and it's good to see you here 
today again.
    I will summarize all my testimony.
    The Department supports S. 3571 and H.R. 5420, which would 
authorize the acquisition of land for addition to the Franklin 
D. Roosevelt National Historic Site. We prefer the Senate bill.
    The Department also supports S. 3609 and H.R. 801, which 
would designate the Route 66 National Historic Trail.
    The Department supports the following bills with 
amendments: S. 3439 and H.R. 5532, which would redesignate the 
Reconstruction Era National Monument as a National Historical 
Park; 
S. 3646, which would authorize the acquisition of certain 
properties at the Sainte Genevieve National Historical Park and 
at the Harry S. Truman National Historic Site; H.R. 3607, which 
would authorize the Secretary of the Interior to establish and 
collect fees for medical services provided at national parks; 
H.R. 5706, which would establish the Pearl Harbor National 
Memorial as a separate unit of the National Park System and 
redesignate the Honouliuli National Monument as a National 
Historic Site; and H.R. 6687, which would provide the National 
Park Service with direction and authority regarding certain 
management actions at Point Reyes National Seashore.
    The Department would support the following bills if they 
are amended: S. 3534, which would redesignate New River Gorge 
National River as a National Park; and H.R. 6599, which would 
modify the application of regulations that govern temporary, 
limited appointments, allowing the National Park Service to 
return to its traditional hiring practices for seasonal 
employees. This is a very critical bill for our workforce, but 
it is important for the one-year sunset provision to be 
removed.
    The Department does not object to the following bills: H.R. 
6077, which would provide an official designation for the 
National Comedy Center in Jamestown, New York; and H.R. 1220, 
which would establish an Adams Memorial Commission. We 
recommend an amendment to this bill.
    The Department recommends deferring action on the following 
bills: H.R. 3961, which would authorize a study of the 
Kissimmee River for potential addition to the National Wild and 
Scenic River System; H.R. 3468, which would designate segments 
of the Nashua River and related rivers as components of the 
National Wild and Scenic River System; and S. 3533, which would 
designate river sections in the Wood-Pawcatuck Watershed as 
components of the National Wild and Scenic River System.
    Finally, the Department does not support the following 
bills: 
S. 2395, which would support cultural heritage tourism and 
historic preservation through a variety of partnerships; S. 
2895 and H.R. 5613, which would designate the Quindaro Townsite 
in Kansas City, Kansas, as a National Historic Landmark and as 
a National Commemorative Site, respectively; S. 3291, which 
would reauthorize funding for the New Jersey Coastal Heritage 
Trail Route; S. 3505, which would increase the authorization of 
appropriations to $20 million annually to support state and 
local acquisition of important battlefield sites; S. 3527 and 
H.R. 5585, which would retroactively extend the authorization 
for the Cape Cod National Seashore Advisory Commission; S. 
3659, which would authorize the Secretary of the Interior to 
annually designate at least one city in the United States as a 
World War II Heritage City; and H.R. 5005, which would 
authorize a study of the birthplace of James Weldon Johnson in 
Jacksonville, Florida, for potential inclusion in the National 
Park System.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions that you or members of the 
Subcommittee may have.
    [The prepared statements of Mr. Smith follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you, Mr. Smith, for your testimony.
    We will move to questions.
    I would like to ask you about a piece of legislation that 
was introduced in the House by Congressman Knight. It is H.R. 
6599 that deals with a personnel matter specific to the 
National Park Service.
    Now, I grew up in the shadows of Yellowstone National Park. 
Glacier isn't too far away, by Montana standards, and recognize 
that seasonal employees are truly the backbone of the Park 
Service. You really need them to keep the agency functioning. 
Many seasonal employees, particularly in the Park Service, 
choose to remain on a seasonal basis, rotating between park 
units as the seasons and needs of the park units change.
    It is my understanding, according to your written 
testimony, that the National Park Service and the Office of 
Personnel Management have a different interpretation of a long-
standing regulation because the Park Service will defer to OPM. 
In this case, a number of long-term, seasonal employees may 
have to recompete for positions within park units such as 
Yellowstone and Glacier, should they return within a year. Do I 
have a correct understanding of that?
    Mr. Smith. You have a very exact understanding of it, yes, 
Senator.
    Senator Daines. How has this determination from OPM 
impacted seasonal employees that may have worked in park units 
for many years, in fact, many of whom have worked in Montana?
    Mr. Smith. All of our parks were affected by this. We 
basically have about 7,500 seasonal employees who definitely 
are part of the backbone of visitor services for us in our busy 
seasons. It's been the standard in the Park Service, and a good 
example would be somebody who works at Glacier in the summer 
but would go down and work in a park in Florida for the winter. 
Very capable, have been doing this for years, superintendents 
rely on their expertise.
    The OPM ruling basically said that we couldn't do what we 
usually do and have them not have to compete for those jobs. 
The OPM regulation required that. So out of the 7,500, it's 
probably a much smaller group, but certainly in the hundreds 
that have been affected by this. Some people just don't 
understand how much we rely on seasonal workforces. We have the 
visitation in the summer months. We can't carry these people 
year-round and we have people who actually prefer this type of 
splitting their season and traveling the country.
    So the bill that's before you would address that situation 
and correct it so that we would be not under the OPM 
determination. And our one concern though, is the House bill 
only has it for one year. To put it in effect for one year 
really doesn't help us at all. We'd like just to basically 
clear up this issue and go back to our standard policy of being 
able to let these people go back and forth for the year worth 
of employment without having to recompete for those positions.
    Senator Daines. I think you have answered the question by 
the change you would like to see, I mean, if there were a 
couple of changes you want to see. You said the House bill just 
has a one-year requirement. What change would you like to see 
in support of this legislation?
    Mr. Smith. Well, if we get the one year, we will put it all 
back into play but then the same issue will be before us next 
fiscal year. Basically, since Congress is looking at this, we'd 
like the relief so that we can go back to what our people 
understand is a policy that's worked very well for years, for 
this group of people who do seasonal employment. So the one 
year to start a policy now to bring them back but next, you 
know, one summer further to not have it in law, it doesn't 
correct the situation.
    Senator Daines. Yes, it seems like if there is one thing 
that DC is good at, it is creating uncertainty. I would suggest 
that your testimony highlights this could have an unintended 
consequence of creating more uncertainty and that we could make 
this legislation a bit better with your suggestions.
    Mr. Smith. Yes, Senator.
    And again, these people that prefer to do this, they are 
people who are so competent in their jobs that they're people 
who, you know, have been there for years doing this and don't 
require additional training or whatever else. And it's really 
upset our workforce. It's a quality of life issue and, again, 
at least one or two people in every park have been affected by 
this.
    Senator Daines. Thank you.
    Senator King.
    Senator King. Talking about the New River Gorge, which 
Senator Capito so ably presented, one of the things she 
mentioned was traditional hunting and fishing as being non-
negotiable, I think was the term she used.
    Give me a more general picture of how the Park Service 
deals with issues of hunting and fishing and how--is it allowed 
in any parks and how do you accommodate local traditions and 
interests at the same time maintaining the tradition and basic 
structure of the National Park System?
    Mr. Smith. Senator, we do allow hunting and fishing in 
units of the National Park System. I believe it's 71 units that 
allow hunting, but those units are designated in a broad 
category as preserves. The best examples of those would be 
Denali Park and Preserve in Alaska, and other ones across the 
country. And the preserve status, besides allowing hunting, it 
can allow also other types of activities.
    Senator King. But when it says park and preserve is it the 
same land? Is it a park and preserve or is the preserve over 
here and the park over here?
    Mr. Smith. They're adjacent but Denali--using Denali as the 
example--there are parts of that park where you cannot hunt and 
then in the preserve portions of that park, we do allow 
hunting. And that's through, usually it's Congressional. 
Congress has given us this direction. Congress, for any units 
of the National Park System that are created, Congress 
stipulates whether or not there's hunting.
    In the National Park category, we don't have hunting. There 
may be situations where we do culling and whatever else for 
resource management, but we do not have traditional hunting.
    And so, believe me, I am very aware of the situation at New 
River Gorge. When that was created there was a, the Secretary 
may allow hunting in that and certainly with Congressman Rahall 
sitting behind me and former Senator Byrd, they put in 
legislation that we----
    Senator King. Former Senator Byrd's ghost is here by the 
way.
    Mr. Smith. I feel it right behind me----
    [Laughter.]
    ----and I'm very comforted by it.
    Very explicitly, it was put in language that there shall be 
hunting in New River Gorge.
    Senator King. So in order to support this bill, there would 
have to be a line drawing in terms of what would be preserve 
and what would be park, is that correct?
    Mr. Smith. That's correct, Senator.
    Senator King. Does your bill have that in it, Senator 
Capito?
    Senator Capito. If I may answer the question?
    The bill that I put in actually uses the language that was 
brought forward by Congress that says, ``shall allow hunting'' 
but it only calls for a redesignation to a National Park. In my 
statement I realized that is the strongest possible--I wanted 
to come out with my strongest negotiating position realizing 
that, probably, in order to preserve the hunting and fishing we 
may have to try to get a combination park/preserve kind of 
approach. We want to work with all the stakeholders.
    Right now in the National River there are, I think, 70,000 
approximate acres in the New River National River and only some 
50,000 of those allow hunting as it stands. So there are some 
restrictions in there now.
    Senator King. So a property could have the designation, the 
label, National Park and Preserve and have these traditional 
uses?
    Mr. Smith. That's correct, Senator.
    Senator King. Thank you.
    Mr. Smith. And I would be on record saying that our first 
position would be for it to be a National Recreation Area but I 
certainly understand the Senator's position on this for it to 
be a National Park designation.
    Senator Daines. Senator Capito.
    Senator Capito. Well, thank you, and thank you very much.
    And thank you, I should have begun my statement with 
thanking both of you for permitting me to come since I am not a 
traditional member of the Subcommittee. So I appreciate that.
    We pretty much covered some of the specifics Senator King 
asked but you did make the clarification that in the National 
River designation it was redesignated to say, ``shall permit 
hunting and fishing.''
    So if my bill were to pass as written, hunting and fishing 
would be--if that was the will of the Congress and signed by 
the President, if it said, if it carried that language, it 
would have to permit. But you are saying it would be the only 
one, except for the one, Grand Teton, I think does some hunting 
for wildlife management. Is that correct?
    Mr. Smith. There are probably several other examples, 
Senator, but yeah, technically there is no national park 
designation that allows the recreational type of hunting that 
we're talking about, the sport hunting.
    Senator Capito. Let me ask you. I just had a meeting with a 
lot of our outdoorsmen and sportsmen just this Monday and one 
of the issues that they asked me in terms of moving forward 
with this was, is there a difference in coordination between 
the DNR and the National Park Service if it is designated as a 
National River or if it is designated as a National Park? Are 
there differences there in terms of more regulatory oversight 
by a park as opposed to a National River? Do you understand 
what I am asking?
    Mr. Smith. Senator, there would be some differences but, in 
the majority, we try to comply with state law and regulation 
when it comes to hunting and fishing. There are certain things 
that can be different.
    In the fishing arena there may be certain parks where we're 
worried about a certain type of trout being introduced or 
whatever else so we might have more restrictions on things like 
that. But in the hunting realm, we track coordination with our 
state fish and wildlife agencies very, very closely.
    Senator Capito. So whatever type of hunting is permitted by 
state law would be what is permitted in a national preserve, 
say, if we made it a preserve rather----
    Mr. Smith. Usually that would be the case, yes----
    Senator Capito. Yes.
    Mr. Smith. ----especially when they designate seasons and 
bow hunting or whatever.
    Senator Capito. Right.
    Mr. Smith. Yes, usually, in by far the majority, there is a 
coordination between state regulation and what we permit, yes.
    Senator Capito. Okay, so let's go back to the park and 
preserve concept. Who draws the designated lines for that? Is 
that done by Congress? Obviously it would have to be done in 
conjunction with you all or how do you do that? Do you do it by 
GPS or how has it been done in the past?
    Mr. Smith. Usually there's coordination and usually with 
legislation a map is introduced that shows that.
    Senator Capito. With the legislation?
    Mr. Smith. With the legislation. And that's usually done in 
coordination with the Park Service and whoever is introducing 
the bill.
    Without knowing all the details, obviously, this 
unbelievably deep gorge, that characteristic, obviously you'd 
think that you'd draw that line down the river and then all the 
uplands and whatever else would be what would be in the 
preserve but there would be eventually a mapping exercise that 
we would undertake on that.
    Senator Capito. Yes, we are a pretty hearty bunch, but 
hunting on a steep slope like that might even be challenging 
for us as West Virginians.
    Well, I would like to ask you then to continue working with 
me and my office and others that are interested in this, to 
help us look at how we could construct something like that.
    Let me ask you, in your past park, in your other park and 
preserve arrangements, like Denali, do you--is the park part 
contiguous? Is it all contained in one area or can you have a 
park area here and then maybe some preserve here and then a 
park area over there?
    Mr. Smith. A lot of it's in contiguous areas but it can be 
generally, again, where those lines are drawn. It doesn't have 
to be contiguous.
    Senator Capito. It does not, okay.
    Let's see, let me just ask you this.
    In my opening statement I remarked on how much economic 
impact a national park designation would have and that is 
obviously one of the key interests that we have here as West 
Virginians.
    Can you quantify that at all or how do you see that as it 
has rolled out through, I do not know how many years you have 
been there? How many years have you been?
    Mr. Smith. I've been around quite a long time, Senator.
    Senator Capito. Okay, so you have a lot of good--if you are 
invoking Senator Byrd, then I know you have been here for a 
while.
    Mr. Smith. Senator, Congressman Rahall and I were talking 
about 1979 on a bill, so----
    Senator Capito. Okay.
    Mr. Smith. ----I am a little bit long of tooth here.
    I'm sorry and again the question?
    Senator Capito. The economic impacts of a park 
redesignation.
    Mr. Smith. Well, you know, there's a nationwide report on 
the impact that, in general, the National Park Service has in 
the billions of dollars.
    I must admit I'm old school where I really think that this 
trend toward taking units into park status doesn't really 
change that much, but I've, again, been convinced that it does 
actually carry a certain uptick in people being interested with 
that park designation rather than a national recreation area 
designation or whatever else.
    Right now, the Park Service, ever since our centennial, our 
visitation is just off the charts.
    Senator Capito. Good.
    Mr. Smith. And so, I won't give that full credit to hunting 
and fishing or that type of thing but, basically, our 
visitation is going--but there's definitely an effect, National 
Park Service units do draw people----
    Senator Capito. Right.
    Mr. Smith. ----and do draw economic value----
    Senator Capito. Right.
    Mr. Smith. ----in the billions of dollars.
    Senator Capito. In the billions, yes. I mean, I would say 
it would be, not just within the park, but also the contiguous 
areas of Fayette and Raleigh and other counties----
    Mr. Smith. All of the gateway communities benefit from the 
visitation at the parks, yes, Senator.
    Senator Capito. Alright, well I look forward to working 
with you. This is something I am very passionate about, and we 
have a lot of support. We are talking with everybody here. I 
have talked with Senator Manchin, and we are working together 
on this.
    I really appreciate your valued service of so many years 
but also your willingness to work with us.
    Thank you and thank you, Mr. Chairman.
    Senator Daines. Thank you, Senator Capito.
    If there are no more questions for today, members may also 
submit follow-up, written questions for the record.
    This hearing record will be open for two weeks.
    I want to thank Mr. Smith for his time and testimony and 
institutional knowledge today.
    This hearing is adjourned.
    [Whereupon, at 10:28 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                [all]

</pre></body></html>
